    REPORT ON THE SCOPE AND
METHODOLOGY OF FMCSA’S REVIEW OF
CANADIAN/MEXICAN COMPLIANCE WITH
FEDERAL COMMERCIAL MOTOR VEHICLE
        SAFETY STANDARDS
    Federal Motor Carrier Safety Administration

          Report Number: MH-2008-081
         Date Issued: September 24, 2008
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Scope and Methodology                                      Date:    September 24, 2008
           Used in FMCSA’s Review of Canadian/Mexican
           Compliance With Federal Commercial Motor
           Vehicle Safety Standards
           Report Number MH-2008-081

  From:    Joseph W. Comé                                                                Reply to
                                                                                         Attn. of:   JA-40
           Assistant Inspector General
             for Highway and Transit Audits

    To:    Federal Motor Carrier Safety Administrator

           This report presents the results of our audit of the Federal Motor Carrier Safety
           Administration’s (FMCSA) review of whether Canadian and Mexican commercial
           motor vehicles operating in the United States comply with National Highway
           Traffic Safety Administration (NHTSA) Federal Motor Vehicle Safety Standards
           (FMVSS). 1

           Section 4139(b) of the Safe, Accountable, Flexible, Efficient Transportation
           Equity Act: A Legacy for Users (SAFETEA-LU) 2 requires the Office of Inspector
           General (OIG) to comment on the scope and methodology FMCSA used in its
           review of Canadian and Mexican commercial vehicles’ compliance with FMVSS.
           The manufacturing standards are requirements, such as installation of antilock
           brake systems, for commercial vehicles made in the United States. The
           manufacturer demonstrates compliance with the standards by affixing a
           certification label to the vehicle.

           On April 20, 2007, FMCSA provided its report to Congress entitled, “The Review
           of Canadian/Mexican Commercial Vehicle Compliance with FMVSS.” FMCSA’s
           report was based on the April 30, 2006, review performed under a grant issued to
           the Texas Transportation Institute (TTI), Texas A&M University System. In that
           report, TTI estimated that over 90 percent of Mexican-owned commercial trucks,

           1
               FMVSS contain minimum U.S. manufacturing safety performance requirements for motor vehicles and equipment to
               protect the public against unreasonable risk of crashes due to design, construction, or performance, and protect
               against death or injury if a crash occurs.
           2
               Pub. L. No. 109-59 (2005).
                                                                                                                     2


trailers, and passenger buses entering into the United States at U.S.-Mexico
commercial border crossings complied with FMVSS. This estimate was based on
the examination of 3,294 vehicles at selected border crossings between
February 13, 2006, and March 24, 2006; where all but 160 trucks, 233 trailers, and
8 buses were determined to comply with FMVSS. 3 According to TTI, its sample
and the probability formulas used to make estimates based on sample results
provide valid statistical estimates at the 95-percent confidence level. 4

Our audit objective was to provide our observations of the scope and methodology
FMCSA used in its review. We conducted this audit from December 2007
through June 2008 in accordance with Generally Accepted Government Auditing
Standards as prescribed by the Comptroller General of the United States. We
performed such tests as considered necessary to detect fraud, waste, and abuse.
Exhibit A provides details of our audit scope and methodology.


RESULTS IN BRIEF
While FMCSA’s report provided evidence that most vehicles TTI sampled on
behalf of FMCSA complied with FMVSS, the estimates it subsequently
formulated based on the TTI sample were not statistically valid because of how
the sample was selected and projected. For example:

      • Neither the border crossings nor the vehicles sampled were chosen at
        random; and therefore, the results are biased. In our opinion, random
        sampling was needed to ensure crossings and vehicles had a known chance
        of being selected, a prerequisite needed to use probability based formulas to
        make statistical projections. TTI agreed that the sample was potentially
        compromised, but opined that it did not impact the sample results.

      • Even if the sample results were not compromised, TTI used the wrong
        probability formulas to make statistical estimates. In our opinion, based on
        the multi-stage sample design used, a more complex statistical formula is
        required—one that appropriately weighs sample results and sampling errors
        at each sample stage. TTI did not agree and opined that the formulas it
        used were appropriate for the sample designed.

Additionally, the quantitative impacts of TTI’s key assumptions are not clearly
presented for report users to effectively evaluate the estimates made. For example,
TTI disclosed that it assumed trucks sampled without a FMVSS or Canadian
Motor Vehicle Safety Standards (CMVSS) certification label affixed were
3
    TTI examined 1,573 Mexican-owned trucks and tractors (herein referred to as trucks), 1,334 trailers, and 387 buses.
4
    Confidence level is the probability that an interval estimate will include the population parameter. Higher
    probability means more confidence.
                                                                                                                      3


compliant if manufactured in Mexico on or after calendar year (CY) 1996. This
assumption was based on FMCSA’s analysis of Mexican manufacturing practices,
which concluded that “most” model year 1996 and later Mexican-manufactured
commercial motor vehicles “may” meet FMVSS. The report did not clearly show
the degree to which this date influenced the estimates made.5

To provide report users with more meaningful results in any subsequent FMVSS
compliance reviews, the Department should ensure that valid statistical methods
are used and the quantitative impact of key assumptions are disclosed. To
accomplish this, members of FMCSA’s staff with expertise in statistics should
review the methods and data used. According to FMCSA personnel, this was not
done for this study; consequently, they relied on TTI to design and implement the
study.

While expert reviews are not required, Department guidelines 6 recommend this
practice for studies or other factual information products presented to Congress.
This practice is also recommended in the Office of Management and Budget
(OMB) September 2006 Standards and Guidelines for Statistical Surveys issued
shortly before FMCSA provided the TTI report to Congress. The guidelines states
that one best practice is to have a reviewer with appropriate expertise in the
methodology consider whether appropriate statistical methods are used.
Additionally, the guidelines state that an agency should ensure that data limitations
and results are presented in a manner that makes the data useful.

According to FMCSA, the concerns raised about sampling methods may be valid
and the estimates derived by TTI may be biased by both sampling and non-
sampling errors, but FMCSA does not expect that the reported TTI findings are
significantly affected by them. We are making two recommendations that focus
on actions FMCSA needs to take to ensure that any future FMVSS compliance
reviews include appropriate FMCSA review and that results are clearly presented.
Our full recommendations are listed on page 10.


BACKGROUND
In March 2002, FMCSA proposed rules that would require each commercial motor
vehicle operating in interstate commerce in the United States to display a
certification label asserting the vehicle complied with all applicable FMVSS when
it was built. In August 2005, FMCSA withdrew the proposed rulemaking after

5
    Based on other data provided in the report, we calculated that TTI counted approximately 15 percent of the trucks it
    sampled as either compliant or non-compliant with FMVSS using the vehicle manufacturing date.
6
    According to the Department, its Information Dissemination Quality Guidelines meet the criteria contained in OMB
    Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility, and Integrity of Information Disseminated
    by Federal Agencies.
                                                                                                                      4


determining that it could ensure Mexican motor carriers’ compliance with these
standards while operating in the United States by enforcing established Federal
Motor Carrier Safety Regulations (FMCSRs) and policies since many of the
FMCSRs are cross-referenced to FMVSS. Enforcement would occur during the
carriers’ pre-authority safety audit and during U.S.-Mexico border crossings and
U.S. roadside vehicle inspections. Additionally, FMCSA issued an internal policy
instructing its staff to deny, suspend, or revoke a carrier’s operating authority or
certificate of registration for making a false certification 7 or issue appropriate
penalties for the falsification. For Canadian-domiciled carriers, FMCSA stated
that the compatibility of CMVSS to FMVSS was confirmed by NHTSA.

Section 4139(b) of SAFETEA-LU required FMCSA to review the degree to which
Canadian and Mexican commercial motor vehicles, including motor carriers of
passengers, operating or expected to operate in the United States, comply with
FMVSS. In response to this requirement, FMCSA engaged TTI, through a grant,
to estimate how many Mexican-owned vehicles currently entering the United
States comply with FMVSS. 8 Although required by SAFETEA-LU to examine
Canadian commercial motor vehicles, the review did not examine Canadian-
domiciled commercial vehicles at border crossings. The review asserted that
Canada has a long history of FMVSS compliance and comparable U.S. safety
standards.

As part of the grant agreement, TTI was to estimate (1) how many vehicles have
an FMVSS or CMVSS certification label affixed and of those without an affixed
label, how many comply based on date and location of manufacture and (2) the
number of vehicles that will operate beyond commercial zones 9 and will comply
with FMVSS if restrictions are lifted. Furthermore, TTI would provide the results
of a study regarding U.S., Canada, and Mexico commercial motor vehicle
standards and their enforcement. Exhibit B provides a summary of TTI’s results.


FINDINGS

Although Most Sampled Vehicles Complied with FMVSS, the
Statistical Estimates Made Were Not Valid
According to TTI, its sample design and probability formulas used to make
estimates based on sample results provided valid statistical estimates at the

7
    Mexico-domiciled carriers applying to operate in the United States must certify that they are in compliance with the
    FMCSR, the Hazardous Material Regulations, and FMVSS.
8
    When the TTI study was conducted in calendar year 2006, there were over 4 million truck and nearly 300,000 bus
    crossings at U.S.-Mexico commercial border crossings.
9
    Commercial zones generally extend from 3 miles to 25 miles north of U.S.-Mexico border municipalities and
    75 miles beyond the border in the state of Arizona.
                                                                                                                     5


95-percent confidence level. In our view, while the evidence TTI collected shows
that most vehicles sampled complied with FMVSS, the estimates it subsequently
formulated based on the sample are not statistically valid because of how the
sample was selected and projected.

TTI stated in its report that it used a statistical approach to estimate how many
Mexican-owned vehicles currently entering the United States comply with
FMVSS; have an FMVSS or CMVSS certification label affixed; and if no label is
affixed, comply with FMVSS based on date and location of manufacture. Further,
it used this approach to estimate the number of vehicles that will operate beyond
commercial zones and comply with FMVSS if restrictions are lifted.

TTI examined a sample of 1,573 10 Mexican-owned trucks (tractors), 1,334 trailers,
and 387 buses at the U.S.-Mexico border heading to commercial zones to
determine whether each vehicle had a FMVSS or CMVSS certification label
affixed to it. 11 If a label was not present, TTI used the vehicle identification
number (VIN) to provide evidence of a vehicle’s date and location of
manufacture, 12 and counted the vehicle as FMVSS compliant if it met the pre-
determined country manufacturing dates presented in the table that follows.

            Table: FMVSS Compliant Country Manufacture Dates
                                           Mexican-Owned
       Country of                            Commercial                           Mexican-Owned
       Manufacture                       Trucks and Trailers*                    Commercial Buses*
       United States                                  1981                              1981
       Canada                                         1991                              1971
       Mexico**                                       1996                     None assumed to comply
       Source: TTI
       * Assumed to be FMVSS compliant if manufactured on or after the calendar year cited.
       ** The dates were applied to Mexico manufactured and non-U.S. and non-Canada
       manufactured vehicles, which included trucks manufactured in Japan; trailers
       manufactured in the United Kingdom and Taiwan; and buses manufactured in Germany,
       Sweden, and Finland.

If TTI could not determine FMVSS compliance for any vehicle through the
vehicle’s VIN or by other means, it categorized it as “missing data” and counted it
as non-compliant with FMVSS. Of the 160 Mexican-owned trucks and

10
     TTI actually examined 1,574 trucks at the southern border, but only used the results of 1,573 trucks. According to
     FMCSA, TTI excluded one truck to prevent bias in the sample results.
11
     According to TTI, Mexico does not have a certification label requirement similar to that of the United States.
     Therefore, no label would be present even if the vehicle was built in the same plant with the same design
     specifications as an FMVSS compliant vehicle for sale in the United States.
12
     Standard VINs comprised of 17 alphanumeric characters with the first character representing the country of
     manufacture.
                                                                                  6


233 trailers TTI counted as non-compliant with FMVSS, 149 trucks and
231 trailers were attributed to missing data. According to TTI, most “missing
data” vehicles were attributed to non-standard VINs. For example, TTI officials
reported that at small border crossings some VINs consisted of from seven to nine
characters or had characters with no readily apparent relation to standard U.S. VIN
coding.

TTI then computed statistical projections (estimates) by applying probability
formulas to the data obtained in its sample and Mexican-owned vehicle data
obtained from United States and Mexico transportation agencies and from the
Internet. For example, TTI estimated that 89.8 percent of all Mexican-owned
commercial trucks, 82.5 percent of trailers, and 97.9 percent of buses crossing into
the United States comply with FMVSS. TTI believes its methods provided valid
statistical estimates at the 95-percent confidence level.


Sample Selection Was Not Appropriate for Statistical Projections
In our view, neither the border crossings nor the vehicles examined in the sample
were chosen at random to produce a valid statistical estimate. Random sampling
was needed to ensure crossings and vehicles had a known chance of being
selected, a prerequisite needed to use probability based formulas to make a
statistical projection.

Specifically:

       • At the first stage of sampling, TTI stratified the 24 border crossings into
         large, mid-size, and small groups depending on the vehicle traffic
         volume. Instead of randomly selecting crossings from each of those
         groups, it subjectively selected 5 of 7 from the large group, 3 of 7 from
         the mid-size group, and 2 of 10 from the small group based on higher
         truck volume.

       • At the next stage of sampling, TTI attempted to select every “nth”
         vehicle, but the effort was interrupted when U.S. Customs and Border
         Patrol Service (CBP) personnel selected the vehicles available to data
         collectors since the collectors were not allowed into the CBP primary
         selection area at the highest volume commercial crossing, the World
         Trade Bridge in Laredo, Texas. Further, at the Bridge of the Americas
         crossing in El Paso, Texas, TTI collectors lost control of the sample by
         allowing FMCSA personnel to select vehicles and collect data.
         Selecting every “nth” vehicle without knowing the universe size and
         without a random start does not render an appropriate random sample
         because it makes it impossible to calculate the selection interval. Not
                                                                                   7


          having a selection interval that covers the universe means not all
          vehicles have a known chance of being selected.

TTI agreed that the sample was potentially compromised at two border crossings
examined, but believed that it did not impact the results because (1) similar results
were obtained at similar size crossings and (2) FMCSA and CBP personnel would
most likely pick the worst vehicles to examine resulting in an under-reporting of
FMVSS compliance. Our view remains the same. TTI’s subjective sampling
eliminated the opportunity to include many vehicles and negated the use of
probability formulas to make statistical projections.


Use of Probability Formula Was Not Appropriate for the Sample Design
Even if the sample results were not compromised, the estimates made were not
statistically valid because of the way the sample was projected. TTI employed a
stratified multi-stage sample design by first, grouping border crossings by volume;
second, selecting crossings within each group; and third, selecting vehicles at
crossings to examine. It then applied a probability formula designed for a simple
random sample to make statistical projections for each group and for the overall
sample.

While this sample design can produce valid statistical estimates and is in line with
Department Information Dissemination Quality Guidelines that recommend using
multi-stage, stratifications, and clustering designs to enhance efficiency and
accuracy, the probability formula TTI used was not appropriate. TTI’s formula
presented results as if a simple random sample of vehicles was taken and did not
weigh the results each group contributed to the overall results

TTI has disagreed with our assessment and believes that the formula used is
appropriate for the sample design. Department guidelines recommend that
estimates be calculated using weights based on design. In our view, the multi-
stage stratified design TTI used calls for a more complex probability formula to
produce statistically valid estimates. Applying a simple random formula to a
multi-stage stratified design results in a wrong point estimate (best estimate) and
confidence limits since it does not appropriately weigh sample results and errors at
each sample stage.


FMCSA Statistical Experts Did Not Review the Work Before Issuance
of Its Report
According to FMCSA, the concerns we raised about sampling methods used may
be valid and the estimates derived by TTI may be biased by both sampling and
non-sampling errors. However, even though the estimates may be biased, FMCSA
                                                                                                                    8


stated it did not expect that TTI reported findings are significantly affected. In our
view, TTI’s report could provide report users with more meaningful results if
members of FMCSA staff with an expertise in statistics had reviewed TTI’s
methods and data used. According to FMCSA officials, there is no requirement to
do so. FMCSA stated, however, that its personnel familiar with the subject matter
reviewed the work, and they relied on TTI based on prior work TTI performed for
them. While expert reviews are not required, Department guidelines recommend
actions of this nature for studies or other factual information products presented to
Congress.

In the future, FMCSA should ensure that an expert review is incorporated into any
review of Canadian and Mexican compliance with FMVSS. Revised OMB
guidelines 13 issued shortly after TTI issued its report and before the Department
provided it to Congress, also express the need for an expert review. OMB’s
September 2006 Standards and Guidelines for Statistical Surveys state that a good
agency practice is to review for appropriate content, subject matter, statistics, and
methodology by selecting “…reviewers with appropriate expertise in the subject
matter, operation, or statistical program discussed in the document.” The reviewer
should consider the:

            • accuracy and appropriateness of assumptions and limitations,

            • appropriateness of statistical methods used and reported, and

            • accuracy of calculations and formulas.


The Quantitative Impact of Key Assumptions Was Not Clearly
Presented
TTI did not clearly present the quantitative impact key assumptions had on the
estimates being reported. We had to determine the impact of the assumptions by
analyzing the data presented throughout the report. Such assumptions can have a
significant impact on a study of this nature. Consequently, the quantitative impact
on the estimates should be clearly presented in the summary of the report for the
report user.

For example, to determine whether a sample vehicle without an appropriate
FMVSS or CMVSS certification label complied with FMVSS, TTI made
assumptions about FMVSS compliance that if found to be incorrect, may impact
its estimates. 14 Specifically, TTI did not clearly disclose that a straight average of
13
     70 FR 55522 (September 22, 2006).
14
     Of the 1,573 trucks TTI analyzed, 1,196 had a valid manufacturing certification label; 217 were assumed compliant
     based on date of manufacture determined by researching the truck’s VIN or other data—151 United States,
     3 Canadian, and 63 Mexican; 11 did not comply with FMVSS; and 149 were non-compliant because of missing data.
                                                                                  9


approximately 15 percent of the trucks it sampled were counted as either
compliant or not compliant with FMVSS based on the location and date
manufactured (Mexico on or after CY 1996). However, the CY 1996 date TTI
used to justify Mexican truck compliance with FMVSS was based on an FMCSA
analysis of Mexican manufacturing practices that concluded “…most model year
1996 and later CMVs [commercial motor vehicles] manufactured in Mexico may
meet the FMVSSs.” 15 The source FMCSA used in support of this conclusion
included examples where Mexican manufactured vehicles could not have
complied with FMVSS until after CY 1996. For instance, Mexico did not adopt
FMVSS antilock brake system requirements until March 1, 1997.

Consequently, the percentage estimates of trucks compliant with FMVSS could
change if better information were available regarding compliance dates used.
Knowledge of the impact TTI’s assumptions had on the estimates made could be
important to report users. The following are other examples that have the potential
to influence the estimates TTI made, but were not clearly presented in the report.

           • TTI assumed that 149 (a straight average of over 9 percent) of the
             1,573 trucks sampled that did not have FMVSS or CMVSS certification
             labels were non-compliant if a non-standard or incomplete VIN was
             recorded on the data collection sheet or other information was not
             available that would identify date and location of manufacture. Neither
             the number nor percent of non-standard VIN or any other conditions
             were clearly presented in the report.

           • According to TTI, 8 (a straight average of 2 percent) of the 387 buses
             observed were categorized as Mexican-manufactured and assumed non-
             compliant. TTI assumed that any bus it examined that did not have a
             manufacture FMVSS or CMVSS certification label affixed were
             Mexican-manufactured buses and therefore, were non-compliant
             because little information was available to determine compliance. The
             percent of buses assumed not to be compliant was not clearly presented.

In response to our observations regarding its assumptions, TTI stated that its
assumptions were disclosed in the report and were based on the best information
available. It also stated that the assumptions had a minor affect on the estimates
and additional work would be required outside the scope established for its review
to provide additional verification. As for missing data, TTI stated that the missing
data assumption was attributed to the fact that a large number of sampled vehicles
did not have a standard VIN.



15
     70 FR 50273 (August 26, 2005).
                                                                                 10


We agree with TTI that it did disclose these assumptions in its report and that
additional testing may have been warranted to verify key assumptions in the
report, such as manufacturing dates or the implication of non-standard VINs.
However, in the examples above, such assumptions have an impact on the
compliance results as well as their usefulness of drawing meaningful conclusions.

In our opinion, in the future, FMCSA should clearly present the quantitative
impact of key assumptions in the report to ensure maximum usefulness of the
statistics produced for the report user. This is consistent with revised OMB
guidelines, which state that an agency needs to ensure that results are presented in
a manner that makes the data as accessible and useful as possible and that
information is presented clearly and logically.


RECOMMENDATIONS
We recommend that the FMCSA Administrator:

1. Ensure that any future reviews of Canadian and Mexican compliance with
   FMVSS use valid statistical methods by having staff with statistics expertise
   review the work throughout the process and before reports are issued.

2. Ensure that any future reviews of Canadian and Mexican compliance with
   FMVSS clearly present in the report the quantitative impact of key
   assumptions made.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA a draft copy of this report on June 23, 2008. On July 28,
2008, FMCSA provided us with suggested changes to and comments on the report.
We incorporated FMCSA’s suggested changes and comments, as appropriate. On
September 9, 2008, FMCSA provided its written comments on the report. In its
comments, included as an appendix to the report, FMCSA concurred with our
recommendations and agreed to take the following actions when it conducts any
future reviews of Canadian and Mexican compliance with FMVSS.

   • Recommendation 1. FMCSA stated that it will ensure that staff with
     statistics expertise reviews any future study methodologies and reports.

   • Recommendation 2. FMCSA stated that it will require key assumptions to
     reflect quantitative impacts in any future reports.
                                                                            11


ACTIONS REQUIRED
We consider FMCSA’s actions to be reasonable.                 We consider the
recommendations closed as FMCSA has stated that OIG’s findings will be used to
guide FMCSA when it conducts future border activities where the level of
compliance with vehicle safety standards is being monitored or evaluated.

We appreciate the courtesies and cooperation of FMCSA representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Kerry R. Barras, the Program Director, at (817) 978-3318.

                                      #
                                                                                 12




EXHIBIT A. SCOPE AND METHODOLOGY
On April 20, 2007, the Federal Motor Carrier Safety Administration (FMCSA)
provided its report to Congress on “The Review of Canadian/Mexican
Commercial Vehicle Compliance with [Federal Motor Vehicle Safety Standards]
FMVSS.” FMCSA based its report to Congress on the April 30, 2006, review by
the Texas Transportation Institute (TTI), Texas A&M University System. Our
audit objective was to provide our observations on the scope and methodology
contained in FMCSA’s review.

We conducted this audit from December 2007 through June 2008 in accordance
with Generally Accepted Government Auditing Standards as prescribed by the
Comptroller General of the United States. We performed such tests as we
considered necessary to detect fraud, waste, and abuse.

To assess the scope and methodology of the TTI review, we determined whether
TTI met the requirements in Section 4139 of the Safe, Accountable, Flexible,
Efficient Transportation Equity Act: A Legacy for Users. We also assessed
whether the report met the scope and methodologies as defined in the grant
agreement by comparing the descriptive reported results to the grant agreement.

Additionally, we compared the sampling design and probability formulas used to
answer the five study questions to those designs and formulas widely accepted in
the statistical and research profession. We followed up with FMCSA and TTI on
areas we noted with potential impact on the validity of the statistical estimates,
such as the subjective selection of crossings noted in our report. We assessed their
response based on widely accepted methods and Department and Office of
Management and Budget guidelines. Furthermore, we reviewed the impact that
disclosed or identified limitations had on the estimates made. For example, we
researched and reviewed the support of the key assumption made in the report that
Mexican trucks complied with FMVSS on or after CY 1996, as contained in
FMCSA’s August 2005 Federal Register Notice.

Finally, we reviewed FMCSA’s oversight of the grant and whether FMCSA had
staff members with an expertise in statistics review TTI’s work during the process
and before the final report was issued.




Exhibit A. Scope and Methodology
                                                                                                                13




EXHIBIT B. SUMMARY OF TEXAS TRANSPORTATION
INSTITUTE REPORTED RESULTS
On April 20, 2007, FMCSA provided to Congress its report on “The Review of
Canadian/Mexican Commercial Vehicle Compliance with [Federal Motor Vehicle
Safety Standards] FMVSS.” FMCSA based its report to Congress on the April 30,
2006, review by TTI, Texas A&M University System. TTI’s responses to the
specific FMCSA questions follow.

       1) How many Mexican-owned vehicles currently entering the United States
          from Mexico comply with FMVSS?

                • At the southern border, the report estimated that 89.8 percent of
                  trucks, 82.5 percent of trailers, and 97.9 percent of buses comply
                  with FMVSS at a 95-percent confidence level.

                • Excluding vehicles in the sample that were counted more than once
                  as a result of multiple border crossings, 16 the report estimated that
                  88.9 percent of trucks, 82.7 percent of trailers, and 97.1 percent of
                  buses comply with FMVSS at a 95-percent confidence level.

                • Large and mid-size border crossings combined had more truck and
                  tractor compliance with FMVSS than smaller border crossings—that
                  is, 95.8 percent to 74.3 percent, respectively. Similar findings were
                  found for trailers, but no significant differences were found for buses
                  at a 95-percent confidence level.

       2) How many of these vehicles bear a FMVSS or CMVSS certification label?

                • The report stated that 76 percent of trucks bear the label
                  (75.7 percent for unique crossings), 60.8 percent of trailers
                  (64.5 percent for unique crossings), and 97 percent of buses
                  (96.4 percent for unique crossings) at a 95-percent confidence level.

       3) How many vehicles do not bear a FMVSS certification label, but are
          assumed to comply with FMVSS because of the vehicle’s date [of
          manufacture] and location of manufacture?



16
     The sample included some vehicles more than once due to vehicles making multiple border crossings. The report
      also provided estimates that excluded these multiple crossings, referred to in the report as unique crossings.

Exhibit B. Summary of Texas Transportation Institute Reported
Results
                                                                                                                    14


                 • Of the vehicles not bearing FMVSS or CMVSS certification labels,
                   the report stated that 57.6 percent of trucks and tractors (54.4 percent
                   for unique crossings) and 55.4 percent of trailers (51.3 percent for
                   unique crossings) were assumed to be compliant at a 95-percent
                   confidence level. 17 The report made no estimates for Mexican-
                   manufactured buses, assuming none were compliant due to a lack of
                   information regarding Mexican standards.

       4) How many vehicles may enter the United States from Mexico and operate
          beyond the commercial zones (when access restrictions are lifted); and of
          those vehicles, how many will comply with FMVSS?

                 • TTI estimated that 2,340 of 2,442 trucks, 1,820 of 1,905 trailers, and
                   76 of 78 buses would operate beyond the commercial zone.

                 • Of the total annual crossings of trucks, trailers, and buses, the report
                   stated that approximately 95.6 percent of trucks and tractors,
                   94.2 percent of trailers, and 97.9 percent of buses are estimated to
                   comply with FMVSS at a 95-percent confidence level.

                 • Based on the number of carriers that applied for operating authority
                   beyond the U.S. commercial zones, the report estimated that
                   95.8 percent of trucks, 95.5 percent of trailers, and 97.4 percent of
                   buses are expected to comply with FMVSS at a 95-percent
                   confidence level. 18

       5) How does the United States differ from Canada and Mexico in its
          regulation and enforcement of commercial motor vehicle standards?

                 • In general, CMVSS largely are similar to and patterned after
                   FMVSS.

                 • A direct comparison of vehicle manufacturing standards in the
                   United States and Mexico is not readily made, because Mexico has
                   no certification label requirement.




17
     FMCSA’s April 20, 2007, letter to Congress inaccurately reported that 48.6 percent of truck crossings, 53.3 percent
     of trailer crossings, and 49.1 percent of unique trailer crossings were assumed compliant.
18
     The percentages represent a straight average calculated by FMCSA.

Exhibit B. Summary of Texas Transportation Institute Reported
Results
                                                          15




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Kerry R. Barras                      Program Director

  David Pouliott                       Project Manager

  Petra Swartzlander                   Statistician

  Gerry Sheeran                        Senior Auditor

  Constance Hardy                      Analyst

  Calvin Moore                         Analyst

  Anette Soto                          Analyst

  Harriet E. Lambert                   Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                         16


                   APPENDIX. MANAGEMENT COMMENTS



           U.S. Department
                                                              Memorandum
           Of Transportation

           Federal Motor Carrier
           Safety Administration



Subject:   INFORMATION: Response to Office of                   Date:
           Inspector General Audit Report
                                                               Reply to
From:      John H. Hill                                        Attn: of   Jeffrey K. Miller
           Administrator                                                  MC-PRS

To:
           Joseph W. Come
           Assistant Inspector General for
            Highway and Transit Audits

           The Federal Motor Carrier Safety Administration (FMCSA) appreciates the opportunity to review the
           Office of Inspector General (OIG) draft report titled, “Comments on the Scope and Methodology of
           FMCSA’s Review of Canadian/Mexican Compliance with Federal Commercial Motor Vehicle
           Safety Standards.” The report reviewed by your office is intended to satisfy Section 4139(b) of
           the Safe, Accountable, Flexible, Efficient, Transportation Equity Act: A Legacy for Users
           (SAFETEA-LU), which required FMCSA to review the degree to which Canadian and Mexican
           commercial motor vehicles comply with the Federal Motor Vehicle Safety Standards (FMVSS).
           Section 4139 also required the OIG to comment on the scope and methodology of FMCSA’s
           review. The findings and recommendations in the report are constructive and beneficial to the
           Agency.
           As referenced in your draft report, on April 20, 2007, FMCSA submitted its report to Congress
           entitled, “The Review of Canadian/Mexican Commercial Vehicle Compliance with FMVSS.”
           The FMCSA report was based on the April 30, 2006, review performed under a grant issued to
           the Texas Transportation Institute (TTI). In the report, TTI estimated that over 90 percent of
           Mexican-owned commercial trucks, trailers and passenger buses entering into the United States
           (U.S.) at U.S.-Mexico commercial border crossings complied with the applicable manufacturing
           standards.
           The OIG questioned the assumptions under which the review and its corresponding analyses
           were conducted, indicating that the use of random inspections rather than TTI’s sampling
           methodology would have changed the outcome. While FMCSA appreciates the OIG’s
           perspective on the methodology used, we do not believe that the impact was statistically
           significant. However, the findings in your report will guide FMCSA when it conducts future
           border activities where the level of compliance with vehicle safety standards is being monitored
           or evaluated.


                   Appendix. Management Comments
                                                                                                17


                                                                                                     2

Responses to Specific Recommendations

Recommendation 1: Ensure that SAFETEA-LU required reviews of Canadian and Mexican
compliance with FMVSS use valid statistical methods by having staff with statistics expertise
review the work through out the process and before the reports are issued.

Response: The FMCSA concurs with the OIG’s recommendation and will ensure that staff with
statistics expertise reviews any future study methodologies and reports.

Recommendation 2: Ensure that any future reviews of Canadian and Mexican compliance with
the FMVSS clearly present in the report the quantitative impact of key assumptions made.

Response: The FMCSA concurs with the OIG’s recommendation and will require key
assumptions to reflect quantitative impacts in any future reports.

We appreciate the work conducted by the OIG and the professionalism demonstrated by the audit
team. If you have any questions or need additional information, please contact
Mr. William Quade, Associate Administrator for Enforcement and Program Delivery, at
202-366-4553.




       Appendix. Management Comments
The following page contains the textual version of the table found in this
document. The page was not in the original document but has been added to assist
screen readers.
           Report on the Scope and Methodology Used in
         FMCSA’s Review of Canadian/Mexican Compliance
      With Federal Commercial Motor Vehicle Safety Standards
                Section 508 Compliant Presentation


Table. FMVSS Compliant Country Manufacture Dates

Mexican-Owned Commercial Trucks and Trailers assumed to be FMVSS
compliant if manufactured in the United States on or after calendar year 1981.

Mexican-Owned Commercial Buses assumed to be FMVSS compliant if
manufactured in the United States on or after calendar year 1981.

Mexican-Owned Commercial Trucks and Trailers assumed to be FMVSS
compliant if manufactured in Canada on or after calendar year 1991.

Mexican-Owned Commercial Buses assumed to be FMVSS compliant if
manufactured in Canada on or after calendar year 1971.

Mexican-Owned Commercial Trucks and Trailers assumed to be FMVSS
compliant if manufactured in Mexico on or after calendar year 1996.*

No Mexican-owned commercial buses were assumed to be FMVSS compliant if
manufactured in Mexico.*

Source: TTI

* The dates were applied to Mexico manufactured and non-U.S. and non-Canada
manufactured vehicles, which included trucks manufactured in Japan; trailers
manufactured in the United Kingdom and Taiwan; and buses manufactured in
Germany, Sweden, and Finland.
